No. 20-1197

In the Supreme Court of the United States
EUGENE MILTON CLEMONS II, PETITIONER,
v.
JEFFERSON S. DUNN, COMMISSIONER, ALABAMA DEPARTMENT OF CORRECTIONS, ET AL.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the foregoing brief contains
5,647 words, excluding the parts of the brief that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury the foregoing is true and correct. Executed on
March 31, 2021.

Saul P. Morgenstern
Counsel of Record
ARNOLD & PORTER KAYE SCHOLER LLP
250 West 55th Street
New York, NY 10019
(212) 836-8000
saul.morgenstern@arnoldporter.com
March 31, 2021

